                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A04020006                                                                        Page 1 of 1



         Our office received and allegation of plagiarism in a proposal1 submitted to NSF. Our inquiry
         determined that the allegation was substantive and we referred the matter the university for
         investigation. The university convened an investigation committee that determined the subject2had
         committed plagiarism by copying numerous pages of material fkom a successful NSF proposal in his
         own proposal without adequate attribution. The university found that the subject committed
         Research Misconduct and levied sanctions upon him

         As a part of our investigative review for pattern, we uncovered additional plagiarism in a second
         proposal submitted to NSF. We contacted the university and they asked us to refer this matter to
         them. The university convened a second investigation committee that found the subject again
         plagiarized material. The university found that the subject committed Research Misconduct and a
         second set of sanctions was levied upon the subject.

         We concurred with the results of both university investigations and forwarded the matter to the office
         of the Deputy Director with a recommendation that NSF make a finding of Research Misconduct.
         This memo with the attached letter fkom the Deputy Director and the attached Report of Investigation
         constitute the closeout for this case. Accordingly, this case is closed.




          2




NSF OIG Form 2 (1 1/02)
                                NA'TIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




      Re: Notice of Misconduct in Science Determination




                     "   As documented




        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF .. ." 45 CFR 5 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 5 689.1(a)(3). A finding of research misconduct
requires that:
       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR $ 689.2(c).
       In your          proposal, you misappropriated text from a source document into the
proposal without providing attribution for such text. In addition, your REU proposal contained
verbatim and paraphrased text fiom a proposal that was previously submitted to ONSF. By
submitting proposals to NSF that copy the ideas or words of another without adequate
attribution, as described in the OIG Investigative Report, you misrepresented someone else's
work as your own. In addition, you failed to acknowledge or credit the authors of the source
proposal in your proposal. Your conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the definition of "research misconduct" set forth' in NsF's
regulations.


         Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR $ 689.2(c). Afier
 reviewing the Investigative Report and the University Committee Report, NSF has determined
 that, .based on a preponderance of the evidence, your plagiarism constituted a significant
 departure from accepted practices of the relevant research community. I am, therefore, issuing a
 finding of research misconduct against you.


        NSF's regulations establish three categories of actions (Group I, II, andIII) that can be
taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
d letter of reprimand; conditioning awards on prior approval of particular activities fro"^^^;
requiring that an institution or individual obtain special prior approval of particular activities
fiom NSF; and requiring that an institutional representative certify as to the accuracy of reports
or certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension fiom participation in NSF programs. 45 CFR 8 689.3(a)(3).


       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct; our determination that it was knowing; the
determination that it was two instances of misconduct, as opposed to an isolated incident; your
willingness to accept responsibility for your actions; and the contrition that you demonstrated
during the course of the investigative process. I have also considered other relevant
circumstances. 45 CFR 5 689.3 (b).


        I find your plagiarism to be serious because the text that you copied into
proposal played an integral role in NSF's decision to fund the proposal. In addition, the amount
of text that you copied in your REU proposal was substantial. This proposal received favorable
comments from reviewers, and the review panel convened by NSF placed your proposal in the
"fundable" range. It is quite likely that this proposal would have resulted in an award had the
University not withdrawn it.


       There are, however, several mitigating factors. First, you took responsibility for your
                                                          '


actions in this matter, and cooperated filly with the University's investigation and the follow-up
conducted by OIG. Second, you sent a letter to the authors of the REU source proposal, as well
as NSF, apologizing for your actions. Lastly, I have taken into account the measures the
Uhiversity has already implemented.


       I, therefore, take the following actions:
       From the date of this letter until November 30, 2006, you are prohibited fiom serving as
       an NSF reviewer, advisor, or consultant.
       If you submit a proposal to IYSF on or before June 30, 2007, an official from your
       University must submit written assurance that the proposal adheres to the rules of proper
       scholarship and attribution as required by the NSF Proposal Grant Guide to the Office of
       Inspector General, 4201 Wilson Boulevard, Arlington, Virginia 22230.
       You are required to complete an ethics training course on plagiarism by December 31,
       2005. You must certify in writing to the OIG that such training has been completed.



        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR $689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. For your information we are attaching a copy of the applicable
regulations. If you have any questions about the foregoing, please call                  Assistant
General Counsel, at (703) 292-8060.




                                                   /
                                                       Kathie L. Olsen
                                                       ~ e p uDirector
                                                                t ~


Enclosures
- Investigative Report
- 45 C.F.R. 689
        National Science Foundation
        Office of Inspector General




                        Confidential
                    Investigation Keport
                  Case Number A04020006

                         March 17,2005


CONFIDENTIAL

NSF OIG FORM2 2 (1103)
                 ~
                                                       Summary

Based on two University investigations, the Office of Inspector General (OIG) has concluded that
the subject1 committed research misconduct in connection with two National Science
Foundation (NSF) proposals. The first investigation found that the Subject plagiarized a
successful proposal written by scientists at another institution into his NSF proposal. The second
investigation found that the Subject also committed plagiarism in an earlier NSF proposal which
resulted in a $150,000 award. As a result of its investigations, the University found that the
Subject committed research misconduct under its policy and that his actions demonstrated a
pattern of plagiarism. The University took two sets of separate and concurrent actions. In
summary, the University reprimanded the Subject, and, for a period of one year, excluded him
fiom applying for any Federal grant, barred him fiom serving as a PI, co-PI or senior project
member on any Federal grant, and required that he withdraw fiom any pending Federal
application. For a period of two years, the University prohibited the Subject fiom serving as an
NSF reviewer. For a period of three and a half years, institutional officials must review all of the
Subject's grant proposals prior to submission.

We recommend that NSF take the following actions as a final disposition in this case:

      1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
         misconduct against him.
      2. For a period of three years, require that an institutional official submit to OIG, in
         conjunction with any proposal or other funding request involving the Subject as PI or co-
         PI, written assurance that the submission is properly referenced and accurate.
      3. For a period of three years, prohibit the Subject fiom serving as an NSF reviewer,
         advisor, or consultant.
      4. Terminate the Subject's active award.




We received an allegation that a Research Experiences for Undergraduates (REU) proposal2 was
plagiarized fiom a successful REU proposal3written by scientists at another institution. We
compared the two proposals and found approximately 267 lines (roughly six and a half pages) of
identical and/or substantially similar text.4

We wrote to the Principal Investigator (PI) requesting his perspective on the allegation.5 In
response, we received a letter signed by the PI (the Subject) and the co- PI.^ The PIS stated that
they obtained a copy of the source proposal fiom the author, made an electronic copy, and used




4
    The proposals, with identical text highlighted and cross-referenced, are at Tab 1.
    Our letter to the PI (the Subject) is at Tab 2.
    The PIS' response to our initial letter is at Tab 3.
this as the basis for their proposal. According to the PIS, "We scanned this proposal in order to
use its organizational structure for our own proposal. We added o w own material and
systematically went about deleting the material from the original proposal. However, in our
haste, we neglected to edit o w final proposal properly to eliminate any remaining parts of [the
source] proposal."7 Our analysis of the proposals and the PIS' response indicated that the
allegation had substance, and we formally referred the allegation to the ~niversity.~

                                     The Universi~'s First Investigation

Following its procedures, the University first conducted an inquiry. After concluding that there
was substance to the allegation, the University decided to withdraw the proposal, and appointed
an Investigation Committee (Committee-1) to conduct the i n ~ e s t i ~ a t i o nCommittee-1
                                                                                  .~
investigated whether the PIS committed plagiarism by failing to attribute text used in their NSF
proposal to the original authors of that text. Committee-1 examined relevant documents and
interviewed the PIS and nine other witnesses, including administrative officers and colleagues.

Committee-1 considered the PIS' explanation that they scanned in the source proposal to
facilitate using it as a guide, that they intended to delete all source material fiom their proposal
prior to submission, and that in their haste to submit the proposal, they neglected to perform a
final review. The PIS characterized their failure to remove the source material as an
"o~ersi~ht."'~  Committee-1 did not find this explanation credible. Committee-1 observed that
there were "35 passages of commonality between the two proposals," and that "if the final check
had been made and the [source] material excised, there'would be little left that was theirs.""

Regarding the Subject's participation in the process, Committee-1's report does not distinguish
the respective roles of the PIS. However, Committee-1 elicited testimony bearing on this issue.12
First, the Subject acknowledged that he solicited a copy of a successful REU proposal (the source
proposal) from the primary author of the proposal.13 Neither of the PIS was able to tell
Committee-1 precisely which sections each of them worked on after the source proposal was
scanned. The Subject simply stated that he and the co-PI worked on the proposal together.14

In addition to investigating the Subject's use of text fiom another institution's proposal,
Committee- 1 investigated the possible use of text fiom NSF proposals submitted by other
University faculty. The Subject at first denied that he used any University sources other than a
fact sheet, but subsequently acknowledged that he made use of a colleague's REU proposal.15
Committee-1 interviewed the colleague, who testified that the Subject asked her for copies of her
proposals.16 She gave him one proposal "to use as a guide," met with h m , and gave h m

  Tab 3.
  Our referral letter to the Universitv is at Tab 4.
  Committee-1 's Investigation Report is at Tab 5. The attachments to the Report are available on request.
I0 ~ a 3.
        b
   Tab 5, p. 8.
12
   The Subject's testimony to Committee-1 is at Tab 6. The co-PI'S testimony is at Tab 7.
l3 Tab 6. D. 3.
comments on a draft of his proposal.17 Committee-1 showed her the Subject's final version and
her own proposal. Committee-1 noted in their Report that the colleague "was demonstrably
surprised to see her words and work in the final submitted ~ersion."'~Committee-1 did not make
a finding with respect to the Subject's use of text from his colleague's proposal, but characterized
it as part of an "incipient pattern of plagiarism."1g

Based upon a preponderance of the evidence and testimony provided by witnesses, Committee-]
found that:

     1. [The Subject] and [the co-PI] plagiarized from the [source] document.
     2. [The Subject] and [the co-PI] knowingly committed research misconduct. Their action
        constitutes a significant departure from accepted practices of the [University] research


Committee- 1 recommended:

     1. That [the Subject] be barred from applying for any federal grant for two years; that he be
        barred from serving as a PI, co-PI, participant, or senior personnel member on any federal
        grant for two years; that he be barred from serving as an NSF reviewer for two years; that
        he withdraw from participation in any pending federal application.
     2. That [the co-PI] be barred from applying for any federal grant for two years; that he be
        barred fiom serving as a PI, co-PI, participant, or senior personnel member on any
        pending federal grant for two years.[211

Committee-1 noted that "The differential recommendations regarding [the Subject] and [the co-
PI] reflect the Committee's assessment of relative culpability."22 In other words, Committee-1
judged the Subject to be more culpable than the co-PI.

                                     University Action against the Subject

On December 12,2003, the University informed the Subject of the actions to be taken against
him.23 The University took action against the Subject by 1) reprimanding him, and, for a period
of two years, 2) requiring that an institutional official certify to the accuracy of reports generated
under any Federal awards and provide assurance of compliance with all relevant institutional
policies, regulations and guidelines; 3) requiring that two institutional officials review all
requests for Federal funding prior to submission; and 4) prohibiting him from serving as an NSF
reviewer. These actions were effective December 1,2003.




l7 Tab 8,pp. 3-4.
l8 Tab 5 , p. 10.
l9 ~ a 5b, pp. 10-11.
20 Tab 5, p. 2.
21 Tab 5 , p. 3.
   Tab 5 , p. 3.
23 The Deciding Official's letter to the Subject is at Tab 10.
                                   The University's Second Investigation

Upon our receipt of Committee-1's Report, we assessed it in terms of accuracy, completeness,
and whether the Committee followed reasonable procedures. Our review indicated that the
Report was accurate and the Committee's procedures were reasonable. However, we noted that
Committee-1 did not review other NSF proposals submitted by the Subject and did not address
the question of whether the Subject's misconduct was an isolated event or part of a pattern. We
concluded that the report was incomplete for IYSF's purposes, and initiated a review of the
Subject's most recent NSF award.24 Our review of this proposal identified approximately 90
lines of text drawn fiom published sources without citation and di~tinction.2~ Accordingly, we
contacted the University and, at the University's request, forwarded an annotated copy of the
proposal together with alleged s0urces.2~

Following its procedures, the University conducted an inquiry. The Vice President for Research
wrote to the Subject and asked him to respond to five questions about his use of sources in the
proposal.27 The Subject did not dispute that he made use of material fiom the alleged sources,
but stated that "We feel that proper credit was given to the authors by the citation of their
          In response to the question as to whether he had permission to copy this material
without citing the sources and distinguishing the material fiom his own contribution, the Subject
answered: "No. Materials cited in the proposal are open manuscripts and to my understanding
permission is not required."29

Based on the results of our review and the Subject's responses to the allegations, the University
decided to reopen its investigation. On February 13,2004, the University appointed a new
Investigation Committee (Committee-2), charged with determining "whether there was a pattern
of plagiarism in works that [the Subject] had submitted to the NSF."~' Committee-2 examined
relevant documents and interviewed six witnesses, including representatives fiom the College of
Engineering, experienced PIS, and an expert on technical writing in the sciences.

After interviewing these witnesses, Committee-2 interviewed the co-PI, who was not a subject of
the investigation and against whom no allegations were made. Based on his testimony and a
review of the sections for which each of the PIS claimed responsibility, Committee-2 concluded
that "[the Subject] was clearly responsible for the pages in which evidence of plagiarism was
clearly apparent."31




                                                                   -   -
26 Our iettir to the university is at Tab 13.
27 The letter from the Vice president for Research to the Subject, and the Subject's responses, are at Tab 14.
28 Tab 14. Although the Subject uses the pronoun "we", the co-PI was unaware of the allegations at this point and
was not responsible for the relevant sections of the proposal.
29 Tab 14.
30 Committee-2's Investigation Report is at Tab 15 (attachments are available on request). Committee-2's charge is
described on p. 1 of the Report.
31 Tab 15, p. 15.

                                                                                                                     4
Committee-2 called the Subject as its final witness.32 Having provided him in advance with a list
of questions, Committee-2 proceeded to discuss each question in turn.33 The Subject stated that
he was primarily responsible for pages C 1-C8 of the proposal (Questions AI - ~ 2 ) Committee-
                                                                                        . ~ ~
2 asked for his views on standards for attribution (Question A3). The Subject argued that he was
following practices in his field, and pointed to passages in his source texts which he alleged were
not properly cited.35 Question A4 concerned the Subject's expectations of his own students in
terms of ethical standards. At this point, the Subject alleged that a student helped him with the
proposal and provided him with allegedly plagiarized material:

         I should add that a student was helping me for this proposal. Beforehand I would give
         him papers to go and read and summarize them; then I was taking material from


         As I said in fact the problem is that I had a student helper and as you see all these are
         coming from the introduction and if you look at the papers that are identified by NSF, A,
         B, C, E, and in the proposal is in introduction. So I have been giving papers to the
         student. The student can go and summarize it because it was a 697 which is individual
         study and [interference] and giving those back to me then I've been using sections and I
         did not know that it is so much alike. 13"]

According to the Subject, he incorporated the student's work into his NSF proposal without
reviewing it or providing any attribution to the student.38 The Subject stated that this material
accounted for the majority of the 6-8 pages that represented his part of the proposal (including
the allegedly plagiarized passages).39 Committee-2 did not question the Subject for further
details concerning the student's identity or the nature of his involvement in the proposal.

Committee-2 found that the Subject acted recklessly in incorporating this material into his
proposal without reviewing it.40 Committee-2 also found that the Subject knowingly used this
material without providing any attribution to the ~tudent.~'
                                                           Committee-2 summarized its findings
as follows:

         The Committee finds that the evidence presented in this case establishes by a
         preponderance of the evidence that the actions of [the Subject] outlined in this Report
         constitute a pattern of plagiarism and further constitute 'research misconduct' as defined


32 The Subject's testimony to Committee-2 is at Tab 17.
33 Committee-2's questions to the Subject are at Tab 16.
34 Tab 17, p. 54.
35 Tab 17, pp. 55-60. In some of the source documents, authors made use of their own previously published material.
This practice does not meet NSF's definition of plagiarism, which crucially involves appropriating the work of
others (45 C.F.R. 689.1(a)(3) (2002)).
36 We asked the Subject to clarify this part of the transcript (Tab 17, p. 61), which appeared to contain transcription
errors. The Subject's corrections are at Tab 23, p. 3.
37 The Subject's corrections to this part of the transcript (Tab 17, p. 63) are at Tab 23, p. 3.
38 Tab 17, p. 63.
39 Tab 17, p. 73.
40 ~ a 15,
         b p. 3.
41
   Tab 15, p. 3.
         by the [University] Policy on Research Misconduct and the actions are therefore a
         violation of that policy.[421

Committee-2 recommended:

     1. That [the Subject] be excluded from applying for any federal grant for one year; that he be
        barred from serving as a PI, co-PI, participant, or senior personnel member on any federal
        grant for one year; that he be barred from serving as an NSF reviewer for one year; and
        that he withdraw from participation in any pending federal application.
     2. That in consecutive years two and three of this action [the Subject] submit any federal
        grant proposal to the Chair of his department and also to the Dean of his College along
        with copies of the references cited; that the Chair and Dean, respectively, review the
        proposal(s) for possible errors in proper attribution.
     3. That only after this review, the proposal can be forwarded to the Office of the Vice
        President for Research with at least two weeks before the closing date of the application
        process.
     4. That the Office of the Vice President for Research can accept the reviews of the
        Department Chair and Dean, but it may also conduct further investigation of its own
        before allowing the proposal to leave the

                                     University Action against the Subiect

The University President accepted Committee-2's Investigation Report in full and directed that
the recommended actions be implemented.44 The University's actions were effective June 30,
2004.4'

                       Subiect 's Resuonse to the University's Investigation Reports

The Subject raised several concerns in his response to the first Investigation ~ e p o r t . 4He
                                                                                               ~
objected to Committee-1's recommendation regarding his pending and active grants, on the
grounds that none of these "were in any way related to the alleged research miscond~ct."~He
also took exception to Committee-1's discussion of a pattern of plagiarism. In particular, the
Subject argued that his colleague's NSF proposal was "available for use from common
[University] resources and is not considered plagiarism."48 He further stated:

         In fact, if the committee had review [sic] all my active and pending proposals, it would
         have been obvious that no misconduct has been committed in any of these proposals
         indicating that the "pattern" that the committee refers to does not exist.[491


42 Tab 15, pp. 1-2.
43 Tab 15, pp. 4-5.
44 The President's adjudication letter is at Tab 19.
45 We asked the University to clarify the effective date of the actions, and also to clarify the timing relationships
between the two sets of actions. Our letter is at Tab 20; the University's response is at Tab 21.
46 The Subject's response to Committee-1 's Investigation Report is at Tab 9.
47 Tab 9, p. 3.
48Tab9,p. 4.
49 Tab 9, p. 5.
The final copy of the Investigation Report does not contain any response to the Subject's letter.
However, the University apparently responded to the Subject's concerns by reducing the severity
of the actions against him.50

In his response to the second Investigation report, the Subject argued that his actions did not
amount to plagiarism.51 He also reiterated his account that a student provided him with
plagiarized materials for his proposal and argued that his inclusion of these materials did not
constitute a pattern of plagiarism.52

                                                OIG 's Investigation

Our review of Committee-2's Report indicated that the Report was accurate and Committee-2's
procedures were reasonable. However, the finding that the Subject's actions were reckless rather
than knowing appeared to rest entirely on the Subject's testimony that a student gave him
plagiarized materials. Accordingly, we asked what efforts were made to corroborate the
Subject's account.53 The Committee Chair replied that Committee-2 accepted the account.54 We
concluded that Committee-2's report was incomplete for NSF's purposes, and initiated an
independent investigation to resolve this issue.

We notified the Subject of our investigation and requested that he provide documentation to
support his testimony.55 Specifically, we requested: (1) an official list of courses taught by him,
(2) the syllabus or description for the "697 individual study", (3) a copy of the student's work
that he used to prepare his proposal, and (4) a description of how the student was involved in the
preparation of his proposal.

The Subject's response did not resolve the issues.56 Instead of an official list of courses, he
provided a list drawn up by himself. Instead of a course syllabus, he listed 26 articles he
purportedly asked the student to summarize; we noted that this list matched the References
section of his proposal. He was unable to provide us with a copy of the student's work. Finally,
he stated that the student knowingly provided him with materials for his proposal: "The student
was aware of [sic] that the purpose of providing me with this summary was so that I could
implement portions of it in my NSF proposal."57

Accordingly, we interviewed the Subject by telephone. The Subject stated that he did not
provide an official courselist because the student was not formally enrolled in a course with him
at the time of his proposal; that he had retained nothing written by the student, including any e-
mails; that the list of articles he sent us was drawn from the References section of his proposal;


50 The Vice President for Research indicated to us that the University's actions were based in part on their belief that
the Subject's behavior was an isolated incident. Our Memorandum of Investigation is available on request.
51 The Subject's response to Committee-2's InvestigationReport is at Tab 18.
52Tab18,p. 2.
53 Our letter requesting clarification is at Tab 20.
54 Tab 2 1, pp. 2-3.
55
   Our letter to the Subject is at Tab 22.
56
   The Subject's response is at Tab 23.
   Tab 23, p. 1.
and that he could provide no documentation to support his testimony concerning the student. He
added that the student graduated in December 2002. We subsequently received a statement fiom
the Subject's former Department Chair confirming that the Subject was "working with" an
unnamed graduate student on a relevant topic at the time of his proposal:

         I concur with [the Subject] that a graduate student was working with him during Winter
         and Fa11 2002. This work was conducted on the subject of "Wireless Surface Acoustic
         Wave Sensing." [The Subject] was awarded a grant by the National Science Foundation
         for a proposal he submitted in this area.['*'

In the further course of our investigation, the Subject provided us with an e-mail message fiom
the student, dated two weeks before the NSF proposal was submitted.59 Attached to the message
is a document with a similar title to the proposal. Our analysis of the e-mail and the document
indicated that they are a~thentic.~'Our analysis of the document also indicates that it consists
almost entirely of text and figures taken from four published sources without citation and
di~tinction.~'Material fiom the document accounts for 127 lines (42%) of the Subject's section
of the proposal.62 However, the document does not account for all the material alleged to have
been plagiarized by the Subject. We also identified a small amount of text (12 lines) that was
copied or closely paraphrased fiom other sources. This is consistent with the Subject's testimony
to Committee-2 that he was responsible for some of the allegedly plagiarized text in his
proposal.63

                                              OIG's Assessment

A finding of research misconduct by NSF requires that (1) there be a significant departure from
accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.64

                                                     The Acts




                                                                                               -
The awarded research proposal (Spring 2002). The Subject was the PI on this proposal and
testified that he was primarily responsible for pages C1-C8. Our initial analysis of these pages
identified approximately 90 lines of text copied or closely paraphrased fiom the writings of
others without citation and distinction. We subsequently determined that the Subject derived

58 The statement fiom the Subject's former Department Chair is at Tab 24.
59 The e-mail message fiom the student, dated March 19,2002, is at Tab 25. The Subject's proposal was submitted
to NSF on April 2,2002.
60 The author of the e-mail message received his Master's degree in December 2002, according
                                     We examined the attached document and found it to be consistent with the e-
mail. The document was created on March 12,2002, and was last saved by the author on March 19,2002 l l :37
AM, seven minutes before the e-mail was sent.
   The student's document and alleged sources, with identical or closely paraphrased text highlighted and cross-
referenced, are at Tab 26.
62 The Subject's NSF proposal and alleged sources, with identical or closely paraphrased text highlighted and cross-
referenced, are at Tab 27.
63 Tab 17, p. 64.
61 45 C.F.R. §689.2(c) (2002).
most of this material from a document prepared by a Master's student working under his
direction.

The REU proposal (Fall 2002). The Subject and the co-PI stated that they scanned in a successful
NSF proposal written by scientists at another institution. This electronic copy became the first
version of their proposal, which they then proceeded to modify. Our comparison of the two
proposals shows that approximately 267 lines of the original proposal, amounting to roughly six
and a half pages of text, were unchanged or closely paraphrased. Copying or closely
paraphrasing text original to another author without attribution or any other form of
acknowledgment is an act of plagiarism.

NSF's Grant Proposal Guide clearly states:

           NSF expects strict adherence to the rules of proper scholarship and attribution. The
           responsibility for proper attribution and citation rests with authors of a proposal; all parts
           of the proposal should be prepared with equal care for this concern. Serious failure to
           adhere to such standards can result in findings of misconduct in science.[651

Furthermore, the Subject signed the University's internal proposal review form, certifjrlng that:

           The attached proposal (i) is complete in its technical content, (ii) adheres to the rules of
           proper scholarshp, including specifically the proper attribution and citation for all text
           and graphics, (iii) is in accordance with specifications established by the sponsoring
           agency.[661

With respect to the awarded research proposal, we concur with the University's assessment that
the Subject included plagiarized materials in his proposal, that these materials were provided to
him by a graduate student, and that the Subject failed to properly review these materials before
submitting his proposal. We are aware that faculty may invite advanced graduate students to
assist with proposal writing. However, to rely heavily on the work of a Master's student without
reviewing it is not consistent with accepted practices of the research community.

With respect to the REU proposal, we concur with the University's assessment that the Subject
copied material from the source proposal. The Subject clearly did not adhere to the rules of
proper scholarship and attribution when he committed this act. His act constitutes a significant
departure from accepted practices of the research community.

                                                         Intent

The awarded research proposal (Spring 2002). The Subject testified that a student gave him
research summaries and that he incorporated these materials into his proposal without reviewing
them or providing any attribution to the student. We conducted an independent investigation to
review evidence bearing on this issue, and the Subject provided us with documents supporting
his account. Based on this account, Committee-2 found that the Subject's actions were reckless

65   NSF 02-2, section I.B.
66   The Subject's proposal certification is at Tab 1.
.   (incorporating a student's work without review) and knowing (using a student's work without
    attribution). We concur.

    The REU proposal (Fall 2002). The PIS stated that they intended to use the source proposal as a
    guide, and that they scanned it "in order to use its organizational structure for our own proposal."
    They stated that "it was never our intention to use the material fiom the successful proposal," and
    characterized the absence of any citation of the source material as an "oversight."67 We agree
    with Committee1 that this explanation "strains ~redibilit~."~'

    In terms of organizational structure, REU proposals require six sections: (a) Overview, (b)
    Nature of Student Activities, (c) The Research Environment, (d) Student Recruitment and
    Selection, (e) Project Evaluation and Reporting, and (f) Results from Prior             If the PIS
    had intended to use only the organizational structure of the source proposal, they could have
    typed these six headings and provided their own text. Instead, the PIS appropriated a successful
    REU proposal and reused not merely the organizational structure, but as much of the original text
    as they could. Committee-1 concluded that the Subject acted knowingly. We concur.

                                                Standard o fProof

    We conclude that a preponderance of the evidence shows that the Subject committed research
    misconduct in connection with two NSF proposal submissions.

    With respect to the awarded research proposal, we conclude that the Subject (1) incorporated
    plagiarized material provided by a graduate student into his NSF proposal, (2) recklessly failed to
    review this material for adherence to scholarly standards, and (3) submitted the proposal to NSF.

    With respect to the REU proposal, we conclude that the Subject knowingly (1) created an NSF
    proposal fiom an electronic copy of another institution's proposal, (2) edited the proposal.
    without either distinguishing or removing all the copied text, (3) failed to provide any attribution
    or acknowledgement to the authors of the source proposal, and (4) submitted the proposal to
    IVSF.

                                              Subiect's Response

    We sent our draft Report of Investigation to the Subject on January 21,2005, and requested that
    he send us any comments by February 28. In our draft Report, we reached certain conclusions
    based on testimony and the Subject's failure to provide any evidence that a student provided him
    with plagiarized material. We also reached conclusions about the Subject's current
    understanding of the rules of proper scholarship and attribution. Consistent with our assessment
    of the severity of the Subject's misconduct, we recommended debarment.

    Upon receiving our draft Report, the Subject contacted us and provided new evidence, including
    a March 2002 e-mail message h m his graduate student with an attached document. The Subject


    67 Tab 3.
       Tab 5, p. 8.
    69 NSF 02-136, "Research Experiences for Undergraduates (REU)."
C
    stated that he found t h s message in a backup of his computer files. Shortly afterward, we also
    received a statement fiom the Subject's Dean attesting to the Subject's understanding of citation
    and attribution. We revised our Report and our recommendations to reflect our analysis of the
    new evidence.

    The Subject formally responded to our draft Report on February 2 1,2005.~' In his response, the
    Subject requested that our recommendations be aligned with those of the University. He also
    expressed regret for his actions, apologized to NSF, and offered to take ethics training.

                                       OIG's Recommended Disposition

    In deciding what actions are appropriate when research misconduct is found, NSF must consider
    several factors. These factors include how serious the misconduct was; the degree to which the
    misconduct was knowing, intentional, or reckless; whether it was an isolated event or part of a
    pattern; whether it had significant impact on the research record, research subjects, other
    researchers, institutions or the public welfare; and other relevant circurn~tances.~~

                                                     Seriousness

    We believe the Subject's misconduct was very serious: the amount of copied text is substantial,
    and one of the proposals resulted in a $150,000 award. With respect to the awarded proposal, the
    copied material was clearly a factor in NSF's decision to fund the proposal. Reviewers
    commented positively on sections of the proposal that were copied fiom the works of others, and
    the review panel commented specifically:

             The proposal nicely describes SAW technology and how design implementations of
             networking these sensors for a variety of scenarios. Very nice description of how different
             types of SAWs can be used depending upon the need. The use of SAW structure that
             naturally reflects an interrogating RF signal with a modulated signal was well
             described.[721

    The "very nice description of how different types of SAWs can be used" is in fact approximately
    two pages of text taken directly from a conference paper written by other authors.

    Reviewers of the Subject's REU proposal also commented positively on sections of the proposal
    that remained nearly identical to the source proposal, and the review panel placed the proposal in
    the fundable range.73 Had the University not withdrawn the proposal, it might well have resulted
    in an award.




    70 The Subject's response to our draft Report is at Tab 28.
    71 45C.F.R. $689.3(b) (2002).
    72 The panel summary for the awarded research proposal is at Tab 30.
    73 The REU proposal reviews and panel summary are at Tab 3 1. The Panel's rating of "Fund If Possible" placed the
    proposal in the fundable range.
                                                                                                                   11
                                               Pattern o fBehavior

The University conducted two investigations into allegations of plagiarism involving the
Subject's NSF proposals. Both investigations concluded that the Subject committed research
misconduct. We concur with Committee-2's finding that the Subject's acts with respect to two
NSF proposals constitute a pattern of misconduct.

                                         Other Relevant Circumstances

In the Subject's defense, he testified to Committee-2 that he is now well aware of standards for
the proper treatment of sources.74 He also co-signed a letter of apology to the PIS of the
appropriated REU proposal.75 The Subject's proposals have been extensively reviewed by
University officials since December 1,2003, the effective date of the first set of University
actions against him. Among the reviewing officials is the Subject's Dean, who has provided a
statement attesting to the Subject's compliance with and understanding of the rules of
scholarship and att~ibution.~~


                                                Recommendations

Consistent with the University's actions and the need to protect the interests of the Government,
we recommend that NSF take the following actions as a final disposition in this case:

    1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
       misconduct against him.77
    2. For a period of three years, require that an institutional official submit to OIG, in
       conjunction with any proposal or other funding request involving the Subject as PI or co-
       PI, written assurance that the submission is properly referenced and accurate.78
    3. For a period of three years, prohibit the Subject fiom serving as an NSF reviewer,
       advisor, or c ~ n s u l t a n t . ~ ~
    4. Terminate the Subject's active award.80




74 Tab  17,pp. 54-55.
75 The  letter of apology is at Tab 1 1.
76 The statement hom the Subject's Dean is at Tab 29.
77 A letter of reprimand is a Group I action.
78 Assurance of compliance is a Group I action.
79 Prohibition from serving as a reviewer, advisor, or consultant is a Group I11 action.
80 Termination of an active award is a Group I11 action. The expiration date on            is August 3 1,2005.
